             OFFICE O F
             INSPECTOR GENERAL
             U.S. DEPARTMENT OF THE INTERIOR



                                                                                        September 22, 2011
Memorandum

To:           Eric Eisenstein
              Division Chief, Intemal Control and Audit Follow-up, Office of Financial
              Management

              Michael Black
              Director, Bureau oflndian Affairs

              Keith Moore
              Director, Bureau of Indian Educations

From:         Charles  Hama~
              Regional Manager for Audits, Inspections, and Evaluations

Subject:      Verification Review ofThree Recommendations from Our May 2007 Flash
              Report. ··Bureau of Indian Affairs and Bureau oflndian Education: Schools in
              Need of Immediate Action, (Report No. C-IN-B IA-0008-2007)"
              Report No. C-VS-BIA-0003-2011

         The Office of Inspector General (OIG) completed a verification review of three
recommendations presented in our flash report, "Bureau oflndjan Affairs and Bureau oflndian
Education: Schools in Need of Immediate Action," Report No. C-IN-BIA-0008-2007. Our
objective was to determine whether the recommendations were implemented as reported to the
Office of Financial Management (PFM), Office of Policy, Management and Budget. In a
memorandum dated October 8, 2009, the Office of Financial Management reported to OIG that
all of the recommendations in the subject report had been implemented, and the audit report was
closed as of September 30, 2009.

Background

        Our May 2007 flash report, "Bureau of Indian Affairs and Bureau of [ndian Education:
Schools in Need of Immediate Action," Report No. C-IN-BIA-0008-2{)07, made three
recommendations designed to notify both Departmental and bureau management of serious
health and safety issues needing immediate action at Indian elementary and secondary schools.

       The Assistant Secretary- Indian Affairs (AS-IA) concurred with the report's
recommendations in an August 3, 2007 memorandum. Additional information, however, was
needed to consider the recommendations resolved and implemented. As a result, OrG referred all
three of the recommendations for tracking of implementation in an August 23, 2007
memorandum to the Assistant Secretary for Policy, Management and Budget.



                        Office of Audits. Inspections, and Evaluations 1 Lakewood, CO
Scope and Methodology

       The scope of this review was limited to determining whether the bureau took action to
implement the three reported recommendations. To accomplish our objective, we reviewed the
supporting documentation that PFM and the bureau provided us relating to each of the three
recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have been corrected. As a result,
this review was not conducted in accordance with the “Government Auditing Standards” issued
by the Comptroller General of the United States.

Results of Review

       Our current review found that the bureau implemented all of the recommendations.

Recommendation 1: Stabilize or vacate buildings currently in use that are in imminent danger
of collapse.

        The AS-IA concurred with the recommendation in an August 3, 2007 memorandum. The
AS-IA’s response stated, “…no buildings known to present imminent danger are occupied.
Indian Affairs will vacate any building that represents an imminent danger to students,
employees, or visitors. The buildings will remain vacated until appropriate measures have been
taken to correct the condition or the buildings are demolished.”

Action Taken: Upon receipt of the report, a team of engineers, architects, line officers, and
persons responsible for maintenance and operations inspected the four schools highlighted in the
report. The team reported to the AS-IA and the Directorates that there were no safety or
structural issues at the schools which represent imminent danger to health and safety of students,
staff, or visitors at the schools visited.

         The team concluded that although safety deficiencies either not identified or not corrected
exist, the most serious of the deficiencies had been corrected or were being addressed outside the
actions prompted by the report. For example, the leaking boiler at Keams Canyon School was
included as part of a Nationwide inspection and repair of all boilers across Indian country by
certified boiler technicians. The team reported other underlying issues that are being suspected of
causing similar conditions to exist at all schools currently rated as being in poor condition.

        After reviewing the report submitted by the Office of Facilities Management and
Construction, Division of Safety and Risk Management, and the subsequent years’ Budget
Justifications specifically addressing each of the four highlighted schools in the Flash Report, we
conclude that Recommendation 1 is resolved and implemented.

Recommendation 2: Demolish or take immediate steps to prevent access to condemned
buildings until they are demolished.



                                                 2
        The AS-IA concurred with the recommendation in an August 3, 2007 memorandum. The
AS-IA’s response stated, “Indian Affairs will take appropriate steps to prevent casual access to
condemned or abandoned buildings until disposition as required by current regulations, statutes,
or policy.”

Action Taken: In a memorandum dated November 15, 2007, Regional Facility Managers were
required to report to their respective Regional Directors and Education Line Officers by
December 1, 2007, on the measures in place or to be taken to prevent access to any facilities
currently abandoned, closed, or not in use. The bureau provided OIG with a revised listing
entitled, “BIA Abandoned Buildings Requiring Boarding Up and Securing of Doors”, dated
July 19, 2011. This listing identifies the status of structures to be demolished or actions to
prevent access to unsecured buildings within each Region. The revised listing includes day
schools, community schools, boarding schools, and agency headquarters.

       After reviewing the revised listing submitted by the bureau on the measures being taken
to prevent access to any facilities currently abandoned, closed, or not in use as highlighted in the
Flash Report, we conclude that Recommendation 2 is resolved and implemented.

Recommendation 3: Develop and implement inspection and abatement plans to identify and
mitigate all health and safety hazards at [Bureau of Indian Education] BIE schools.

        The AS-IA concurred with the recommendation in an August 3, 2007 memorandum. The
AS-IA’s response stated, “Indian Affairs will continue the organizational changes begun in fiscal
year 2007 and the comprehensive effort to inspect all facilities through a combination of
qualified safety officers using current employees and consultant services and appropriate
oversight. The plan for inspections and abatement of safety deficiencies will be completed by the
first quarter of fiscal year 2008. Correction of known deficiencies that are ongoing and within the
parameters of the existing budget will be corrected in priority order with the most critical safety
deficiencies abated as the top priority.”

Action Taken: In November 2007, the Office of Facilities Management and Construction
provided the BIE Director a report of all health and safety hazards in existence at BIE schools at
the time of the Flash Report. The purpose of the report was to establish and track completion of
corrective actions in mitigation. By March 2009, all inspection deficiency data would be encoded
into Facilities Management Information System and the Division of Safety and Risk
Management would produce a safety report of the past fiscal year deficiencies within the process
described by the report. By April 2009, all safety deficiencies would be categorized and
prioritized such that abatement plans are created and entered into FMIS. The BIE Director and
Education Line Officers would be responsible for accomplishing the correction of the abatement
plan safety deficiencies in conformance with existing priority of work policies as outlined in the
report’s process.

       The bureau submitted inspection and abatement plans for the 9 BIE facilities listed in the
Flash Report Appendix. However, the proposed reorganization of field safety offices to be under
the Director, Office of Facilities, Environmental and Cultural Resources, Division of Safety and
Risk Management, was not implemented and field safety positions remain unfilled with no


                                                 3
increase to staff levels. A memorandum from the Chief, Division of Safety and Risk
Management, to the Regional Directors and Education Line Officers attributes the failure of
annual building inspections, backlogs of facilities safety deficiencies, and the immediate
correction of safety violations to deficiencies in funding. Still, the responsibility for workplace
and school safety remains with the Bureau of Indian Affairs (BIA) and BIE Directors. The BIA
Director is responsible for the proper conduct of the Indian Affairs Safety program in a
geographic area within each Region to include both BIA and BIE.

        After reviewing the inspection and abatement plans for the 9 BIE facilities in the Flash
Report Appendix and memorandum for safety and occupational health program responsibilities
to the BIA and BIE Directors, we conclude that Recommendation 3 is resolved and
implemented.

Conclusion

      We informed bureau officials of the results of this review on August 8, 2011, and they
agreed with the results of our review.


cc:    Alexandra Lampros, Liaison Officer, Office of the Secretary
       Michael Oliva, Audit Liaison Officer, AS-IA




                                                 4
